An unpublish d order shall not be regarded as precedent and shall not be cited as legal authority. SCR 123.

IN THE SUPREME COURT OF THE STATE OF NEVADA

THOMAS RICHARDSON,
Appellant,
vs.
THE STATE OF NEVADA,
Respondent.

No. 54951

FILED
NOV O9 2012

ORDER OF AFFIRMANCE
This is an appeal from a judgment of conviction in a death
penalty case.

Eighth Judicial District Court, . Clark County; Michelle

Leavitt, Judge.
Appellant Thomas Richardson was convicted of multiple
offenses related to the robbery and murder of Steve Folker and Estelle
Feldman at Feldman's home in Las Vegas. The State presented evidence
that Richardson and his girlfriend's 18-year-old son, Robert Dehnart,
agreed to murder the victims as part of a scheme to rob Folker and that
Richardson struck the victims repeatedly with a hammer.

A jury

convicted Richardson of conspiracy to commit murder, two counts of firstdegree murder with the use of a deadly weapon, burglary while in
possession of a deadly weapon, conspiracy to commit robbery, and robbery
with the use of a deadly weapon and sentenced him to death for each
murder.

On appeal, Richardson raises issues related to the guilt and

penalty ph~ses of trial.
Guilt-phase issues
Richardson argues that the State presented insufficient
evidence to the grand jury to sustain his indictment and that there was
SUPREME COURT

OF

NEVADA
(0) 19 4 7 A . . ,

1a

insufficient evidence adduced at trial to sustain his convictions. He also
contends that the district court ruled erroneously on matters related to (1)
the defense's closing arguments, (2) the admission of evidence, (3) jury
instructions, and (4) prosecutorial misconduct.
Sufficiency of the indictment
Richardson argues that the State presented insufficient
evidence to the grand jury to sustain his indictment as evidenced by the
failure of the justice court to bind him over for trial at his preliminary
hearing.

He further contends that the State improperly presented the

case against both he and his codefendant, who had already been bound
over, in order to elicit evidence that would have been inadmissible hearsay
against only Richardson. We conclude that these arguments lack merit.
The fact that the jury found Richardson guilty beyond a reasonable doubt
belies his claim that there was insufficient evidence to support the
indictment. See United States v. Mechanik, 475 U.S. 66, 70 (1986) (any
error in grand jury proceedings harmless where defendants found guilty
beyond a reasonable doubt at trial); Lisle v. State, 114 Nev. 221, 224-25,
954 P.2d 744, 746-77 (1998) (citing Mechanik). Contrary to Richardson's
assertions, the fact that a justice of the peace found that the evidence was
insufficient to bind him over to the district court is not de facto proof that
the evidence later presented to the grand jury was insufficient to support
the indictment.

See NRS 178.562(2) (authorizing prosecutor to seek

indictment after dismissal of prior complaint). Further, the State was not
barred from seeking an indictment against Dehnart merely because it had
already succeeded in having him bound over. See Sheriff v. Dhadda, 115
Nev. 175, 183-8,4, 980 P.2d 1062, 1067 (1999). Therefore, the district court

SUPREME COURT
OF

NEVADA
(0) 1947A

2

2a

did not abuse its discretion in denying Richardson's motion to dismiss the
indictment. See Hill v. State, 124 Nev. 546, 550, 188 P.3d 51, 54 (2008).
Sufficiency of the evidence
Richardson argues that there was insufficient evidence
produced at trial to sustain his convictions.

He asserts that the State

failed to produce sufficient evidence to corroborate Dehnart's testimony
about Richardson's involvement in the crime. We disagree.
At trial, Dehnart testified that he and Richardson traveled to
Las Vegas to murder and rob Folker. When they realized that Folker was
staying with Feldman, they agreed to kill her as well. Dehnart testified
that after arriving in Las Vegas, he, Richardson, and Folker ran several
errands, which included trips to Bank of America, Home Depot, and Taco
Bell. To corroborate this testimony, the State introduced a receipt and
surveillance video from Taco Bell, where the three men ate dinner, and a
sales record from Home Depot, where Dehnart purchased the murder
weapon. Investigators also recovered Dehnart's prints at Feldman's home
and identified Richardson's hat in the room in which Folker was beaten to
death.

Other evidence showed that Richardson had given $275 to his

girlfriend, Kim Ross, to deposit shortly after the murders. When he and
Dehnart were questioned, Richardson denied ever going to Las Vegas and
discouraged Dehnart from talking to the police. In addition, recorded calls
from the jail indicated that Richardson attempted to establish an alibi for
the day of the murders and had some knowledge of the contents of Folker's
truck. We conclude that Dehnart's testimony is sufficiently corroborated
pursuant to NRS 175.291(1), see Cheatam v. State, 104 Nev. 500, 504-05,
761 P.2d 419, 422 (1988) (concluding that corroborating evidence "need not
in itself be sufficient to establish guilt, and it will satisfy [NRS 175.291] if
SUPREME COURT

OF

NEVADA
(0) 1947A

3

3a

it merely tends to connect the accused to the offense"), and that
substantial evidence supports the jury's verdict; therefore, we will not
disturb the jury's verdict. See Bolden v. State, 97 Nev. 71, 73, 624 P.2d
20, 20 (1981); see also McNair v. State, 108 Nev. 53, 56, 825 P.2d 571, 573
(1992).
Closing argument
Richardson

argues

that

the

district

court

improperly

prevented defense counsel from arguing that, aside from Dehnart's
testimony, the evidence did not place him at the home during the murders.
He contends that the argument was consistent with the physical evidence
and a theory that Dehnart was lying about Richardson's involvement in
order to secure favorable treatment from the State. 1
We conclude that the district court abused its discretion. See
Glover v. Dist. Ct., 125 Nev. 691, 704, 220 P.3d 684, 693 (2009) (providing
that this court reviews the latitude allowed counsel in- closing arguments
for abuse of discretion).

As forensic evidence did not contradict the

argument and Richardson's statements to the police supported the
argument, he should have been allowed to argue that he left for home
after parting with Folker and Dehnart at the trailer. See id. at 705, 220
P.3d at 694 ("'[D]efense attorneys must be permitted to argue all
reasonable inferenc~s from the facts in the record."' (quoting U.S. v.
1Richardson

asserts that the State was permitted to make similar
inferential leaps in its arguments. We conclude that the State did not
benefit from more latitude in its argument or respond to arguments that
Richardson was prevented from making. The State's argument merely
responded to his general argument that Richardson did not participate in
the murders. Further, the State's argument was supported by the
evidence.
SUPREME COURT

OF

NEVADA
(0) l947A

4

4a

Hoffman, 964 F.2d 21, 24 (D.C. Cir. 1992)); see also United States v.
Sawyer, 443 F.2d 712, 713 (D.C. Cir. 1971) (providing district court abuses
discretion when it "prevents defense counsel from making a point essential
to the defense"). However, the error was harmless beyond a reasonable
doubt for two reasons. See Valdez v. State, 124 Nev. 1172, 1189, 196 P.3d
465, 4 76 (2008) (providing that where the error is constitutional, this court
"will reverse unless the State demonstrates, beyond a reasonable doubt,
that the error did not contribute to the verdict"). First, Richardson was
able to make a general argument that absent Dehnart's testimony, no
evidence placed him in the home and no evidence placed him in Las Vegas
after the trip to Taco Bell.
testimony

was

corroborated

Second, as discussed above, Dehnart's
other

on

matters

and

Richardson

demonstrated consciousness of guilt by trying to fabricate an alibi.
Therefore, the error did not affect the outcome of trial.
Failure to preserve evidence
Richardson contends that the State's failure to collect and
preserve the "Autoclub 500" hat observed at the crime scene and the
district court's refusal to give a negative inference instruction violated his
right to due process. He contends that police officers acted in bad faith,
and that even if they did not act in bad faith, he is still entitled to relief.
We conclude that Richardson failed to show a due process
violation from the State's failure to collect the hat for two reasons. First,
he did not demonstrate that, had the hat been available to the defense, the
result of the proceedings would have been different. See Daniels v. State,
114 Nev. 261, 267, 956 P.2d 111, 115 (1998) (providing that defendant
must show that evidence that police failed to gather was material).
Richardson's contention, that trace evidence may have demonstrated that
SUPREME COURT

OF

NEVADA
(0) 1947A

5

5a

the hat belonged to another person, was "'merely a hoped-for conclusion."'
Sheriff v. Warner, 112 Nev. 1234, 1240, 926 P.2d 775, 778 (1996) (quoting
Boggs v. State, 95 Nev. 911, 913, 604 P.2d 107, 108 (1979)). The hat was
found under one victim's bed and did not have any apparent blood on it.
Thus, nothing suggested that it was any more likely that the hat had
belonged to the perpetrator or victim. Second, while the police may have
been negligent in failing to seize the hat after observing surveillance video
showing the victim with Richardson, who was wearing a hat, Richardson
failed to demonstrate gross negligence or bad faith. See Daniels, 114 Nev.
at 267, 956 P.2d at 115 (providing that where defendant demonstrates
evidence was material, "the court must determine whether the failure to
gather evidence was the result of mere negligence, gross negligence, or ...
bad faith" and imposing no sanction for mere negligence). In particular,
the hat could not, at the time it was discovered, be identified as the hat in
the surveillance video and it was not until detectives interviewed Ross
that the hat's relevance became apparent, but by then the crime scene had
been released to the victims' family, cleaned, and material collected by the
cleaning company had been destroyed.

As Richardson failed to

demonstrate bad faith or gross negligence regarding the failure to collect
the hat, the district court did not abuse its discretion in declining to
instruct the jury that the evidence would have been unfavorable to the
State. Se~ id.
Admission of evidence
Richardson contends that the district court abused its
discretion in admitting (1) a hammer that was not the murder weapon, (2)
a custody report for another possible suspect, (3) testimony about
Richardson's custody status, and (4) autopsy photographs.

He also

SUPREME COURT

OF
NEVADA

(0) 1947A

~

6

6a

contends that the district court erred in refusing to admit character
evidence concerning Folker. We conclude that the district court did not
abuse its discretion for the reasons discussed below. See Mclellan v. State,
124 Nev. 263, 267, 182 P.3d 106, 109 (2008) (reviewing "a district court's
decision to admit or exclude evidence for an abuse of discretion").
First, Richardson argues that the district court abused its
discretion in admitting a hammer into evidence that was not the murder
weapon.

He asserts that the jury should have been given a limiting

instruction and should not have been allowed to have the hammer in the
jury room during deliberations. We disagree. The hammer was relevant
to demonstrate the manner in which the victims died. See NRS 48.015
("'[R]elevant evidence' means evidence having any tendency to make the
existence of any fact that is of consequence to the determination of the
action more or less probable than it would be without the evidence."); see
also Masters v. Dewey, 709 P.2d 149, 152 (Idaho Ct. App. 1985) (providing
that demonstrative evidence is used for illustration and clarification).
Further, as trial testimony stated that the actual weapon was not
recovered and the admitted hammer had been purchased by an
investigator, the jury was .aware that the hammer was not the actual
murder weapon. While the district court issued no specific instructions at
the time of its admission or during the final jury charge, no such
instruction was requested.
Second, Richardson argues that the district court erred in
admitting the custody report for Daniel James, another possible suspect in
the killings. Richardson argues that the custody report, which showed
that James was in custody at the time of the killings, was entered into
evidence without the proper foundation. We disagree. The custody report
SUPREME COURT

OF

NEVADA
(0) 1947A

7

7a

from the California Department of Corrections was admitted with an
affidavit from the custodian of records. Thus, there was a sufficient
showing that the document was what it purported be. See NRS 52.015(1)
(providing authentication requirement met by "evidence or other showing
sufficient to support .a finding that the matter in question is what its
proponent claims"); Thomas v. State, 114 Nev. 1127, 1148, 967 P.2d 1111,
1124 (1998) ("The government need only make a prima facie showing of
authenticity so that a reasonable juror could find that the document is
what it purports to be."). Further, Detective Vaccaro testified that as a
result of his investigation, he was satisfied that James was in custody on
the day of the murders. Thus, there was a sufficient showing that it was
the custody report for the Daniel James in contention.
Third, Richardson argues that the district court erred in
admitting testimony about his custody status when he was interviewed by
detectives and in failing to grant a mistrial based on the testimony. We
disagree.

While some testimony concerning Richardson and Dehnart's

interaction and behavior after their arrest referenced a penal setting, the
statements did not allude to any prior crimes. See Collman v. State, 116
Nev. 687, 705, 7 P.3d 426, 437 (2000) ("Reference to a defendant's prior
criminal history may be reversible error."); see also NRS 48.045(2)
(providing that evidence of other wrongs cannot be admitted at trial solely
for the purpose of proving that a defendant has a certain character trait
and acted in conformity with that trait on the particular occasion in
question). No information was presented that suggested that Richardson
was being held for questioning on charges other than the instant case. See
Collman, 116 Nev. at 705, 7 P.3d at 437 (providing that a reference to a
defendant's prior criminal activity occurs where the jury can reasonably
SUPREME COURT

OF
NEVADA
(0) 1947A

8

8a

infer from the evidence presented that the defendant engaged in prior
criminal activity). Therefore, the district court did not abuse its discretion
in denying Richardson's motion for a mistrial. See Rose v. State, 123 Nev.
194, 206-07, 163 P.3d 408, 417 (2007).
Fourth, Richardson argues that the district court erred in
admitting autopsy photographs. He contends that the probative value for
the additional photographs was slight as the pictures were repetitive and
unnecessary in light of the medical examiner's testimony. We disagree.
Although the photographs are gruesome, the evidence was relevant
because it assisted the medical examiner in testifying about the victims'
cause of death and the manner in which they received the injuries, and
was not unfairly prejudicial. See Libby v. State, 109 Nev. 905, 910, 859
P.2d 1050, 1054 (1993) ("The district court has discretion to admit
photographs into evidence, as long as their probative value is not
substantially outweighed by their prejudicial effect."), vacated on other
grounds, 516 U.S. 1037 (1996).
Fifth, Richardson contends that the district court erred in
excluding testimony about Folker's erratic behavior.

He contends that

this testimony would have supported his theory that Dehnart killed Folker
after a violent altercation. We conclude that this argument lacks merit.
Generally, character evidence is not admissible to show an individual
acted in conformity with his character, however, a defendant may "present
evidence of a victim's character when it tends to prove that the victim was
the likely aggressor." Daniel v. State, 119 Nev. 498, 514, 78 P.3d 890, 901
(2003). While "evidence of specific acts showing that the victim was a
violent person is admissible if a defendant seeks to establish self-defense
and was aware of those acts," id. at 515, 78 P.3d at 902, such a defense is
SUPREME COURT
OF

NEVADA
(0) 1947A

9

9a

not applicable here.

Richardson asserts that he was not at the home

during the murders.

Dehnart's testimony does not indicate that the

murders occurred in self-defense.

While Richardson contends that

Dehnart is lying, the proffered character evidence remains inadmissible
because he did not establish that Dehnart was aware of the prior acts of
violence.
Sixth, Richardson contends that the district court erred in
excluding testimony about Folker's financial condition, in particular,
details concerning the sale of his home. He asserts that the testimony
would have refuted the evidence concerning Dehnart's motive to commit
the crime. We discern no abuse of discretion. The district court permitted
Richardson to inquire as to Folker's financial condition and how much
money Folker made from the sale of his home, provided that he could
demonstrate a foundation for the witness's knowledge.

Richardson

declined to question the witness further and offered no evidence to
demonstrate a foundation for the witness's knowledge. See NRS 50.025
(providing that witness may not testify unless sufficient evidence is
presented to establish witness's personal knowledge of the matter or
witness is testifying to opinion as an expert).
Guilt-phase instructions
Richardson challenges the district court's refusal to give his
proposed

instruction

regarding:

(1)

accomplice

testimony,

(2)

circumstantial evidence, and (3) aiding and abetting after the murder. We
conclude that the district court did not abuse its discretion in declining to
give any of these instructions. See Crawford v. State, 121 Nev. 744, 748,
121 P.3d 582, 585 (2005) ("The district court has broad discretion to settle

SUPREME COURT

OF

NEVADA
(0) 1947A

10

10a

jury instructions, and this court reviews the district court's decision for an
abuse of discretion or judicial error.").
First, Richardson argues that the district court abused its
discretion in refusing to give his proposed instruction on the consideration
of accomplice testimony. We disagree. While Richardson "has the right to
have the jury instructed on [his] theory of the case . . . no matter how
weak or incredible [the] evidence [of that theory] may be," Margetts v.
State, 107 Nev. 616, 619, 818 P.2d 392, 394 (1991), the district court may
refuse instructions on the defendant's theory of the case if the proffered
instructions are substantially covered by other instructions given to the
jury, Earl v. State, 111 Nev. 1304, 1308, 904 P.2d 1029, 1031 (1995). The
jury was instructed that it could consider the fact that a witness was given
an inducement to testify in determining that witness's credibility.
Because that instruction adequately covered the substance of Richardson's
requested instruction, the district court did not abuse its discretion in
refusing to give Richardson's instruction.
Second, Richardson contends that the district court abused its
discretion in failing to give his requested instruction concerning the
interpretation of circumstantial evidence.

He acknowledges that in

Deveroux v. State, 96 Nev. 388, 391-92, 610 P.2d 722, 724 (1980), this
court held that it is not error to refuse such an instruction when the jury is
properly instructed regarding reasonable doubt, but he nonetheless argues
that he was entitled to the instruction and urges this court to overrule
Deveroux.

We decline Richardson's invitation to overrule Deveroux as

Richardson has not cited any precedent that undermines this court's prior
reasoning and therefore he has failed to articulate a novel argument for
this court's departure from Deveroux.

Because the district court

SUPREME COURT
OF

NEVADA
(0) 1947A

11

11a

instructed the jury on the State's burden of proof and gave the statutory
reasonable doubt instruction, it could properly refuse to give the requested
instruction. See id.
Third, Richardson contends that the district court abused its
discretion in refusing to give a proposed instruction regarding aiding and
abetting after the killing. We discern no abuse of discretion. At trial, the
district court gave a general aiding and abetting instruction and the
statutory reasonable doubt instruction. These instructions substantially
covered the subject matter of the requested instruction.

The language

used to describe aiding and abetting contemplates actions taken before or
at the time of the actual crime and does not include actions solely taken
after the commission of the crime.

Read in conjunction with the

reasonable doubt instruction, the jury was informed of its duty to acquit if
it had reasonable doubt as to whether Richardson aided and abetted
Dehnart before the killings.
Prosecutorial misconduct
Richardson argues that the State committed prosecutorial
misconduct during the guilt phase of trial by improperly appealing to the
emotions and sympathies of the jury. We disagree. Taken in context, the
comment, which invited the jury to consider the victims' final moments,
did not exceed the bounds of proper advocacy. See Williams v. State, 113
Nev. 1008, 1020, 945 P.2d 438, 445 (1997) (providing prosecutor not
forbidden from inviting the jury to consider victim's final moments),
overruled on other grounds by Bvford v. State, 116 Nev. 215, 994 P.2d 700
(2000).

Moreover, looking at the challenged statements in context, the

State reaffirmed that the jury was not to act out of anger and sympathy
but out of. conscience and rectitude.

Therefore, Richardson failed to

SUPREME COURT

OF
NEVAOA

(0) 1947A

12

12a

demonstrate plain error. See Gallego v. State, 117 Nev. 348, 365, 23 P.3d
227, 239 (2001), abrogated on other grounds by Nunnery v. State, 127 Nev.
_ , 263 P.3d 235 (2011), cert. denied, _

U.S. _ , 80 U.S.L.W. 3690

(June 18, 2012 (No. 11-9433)).
Penalty-phase issues
Richardson argues that the district court made numerous
erroneous rulings on matters related to (1) victim impact evidence from
prior crimes, (2) emotional outbursts by the victims' family, and (3)
prosecutorial misconduct.

He also argues that the death penalty is

unconstitutional and that cumulative error warrants reversal of his
conviction and sentence. We conclude that these arguments lack merit for
the reasons discussed below.
Victim impact evidence
Richardson argues that the district court erred by admitting
victim impact testimony from his prior offenses during the penalty phase.
He further argues that the State repeatedly revisited the irrelevant victim
impact testimony in its closing arguments. While Richardson objected to
the introduction of the testimony, he did not object to the prosecutor's
argument. We conclude that this claim lacks merit. At trial, the victim of
Richardson's prior sexual assault testified about the sexual assault to
establish the aggravating circumstance for a prior violent felony conviction
and to illustrate Richardson's violent character, which is permissible in
capital penalty hearings. See Browning v. State, 124 Nev. 517, 526, 188
P.3d 60, 67 (2008). However, she also testified that she was humiliated
when specimens were collected for the rape kit and that her son was
traumatized by the event. These aspects of the prior offense were not
However, both of the witness's

relevant to the penalty hearing.
SUPREME COURT

OF
NEVADA

(0) 1947A

13

13a

statements were fleeting and not discussed further during questioning.
Thus, while Richardson demonstrated that the district court abused its
discretion in admitting this part of the testimony, the error did not have a
"'substantial and injurious effect or influence in determining the jury's
verdict."' Fields v. State, 125 Nev. 776, 784, 220 P.3d 724, 729 (2009)
(providing that erroneous admission of evidence reviewed for harmless
error) (quoting Kotteakos v. United States, 328 U.S. 750, 776 (1946)).
Regarding the prosecutor's comments, any references to the impact that
Richardson's crimes had on prior victims were fleeting and lost to the
larger context of the State's argument-to provide a full account of who
Richardson is.

Therefore, Richardson failed to demonstrate that the

challenged prosecutorial comments amounted to plain error.
Mistrial
Richardson contends that the district court abused its
discretion in failing to grant a mistrial during the guilt phase of trial due
to .multiple emotional outbursts by the victims' family.

He further

contends that the district court deprived him of a fair penalty hearing
when it failed to instruct the victims' family members to avoid emotional
outbursts in front of the jury.
We discern no abuse of discretion. See Rose v. State, 123 Nev.
194, 206-07, 163 P.3d 408, 417 (2007). A review of the record does not
reveal that the incident unduly influenced the jury because all those who
heard noises from the family indicated that they were hushed tones and it
was unclear if the noises were even audible to members of the jury. See
Johnson v. State, 122 Nev. 1344, 1358-59, 148 P.3d 767, 777 (2006)
(providing that an isolated incident of the victim's brother passing out in
response to a crime scene photograph did not render the penalty hearing
SUPREME COURT
OF

NEVADA
(0) 1947A

14

14a

fundamentally unfair). Further, the district court thereafter directed the
victims' family to sit further from the jury and closer to the court marshal.
In addition, we conclude that the district court did not abuse its discretion
in declining to admonish the victims' family. Nothing the victims' family
is alleged to have done could rightly be considered an "outburst." The
family cried during the presentation of some evidence, spoke in hushed
tones only audible to those immediately around them, and embraced each
other during the presentation of victim impact evidence.
Weighing instruction
Richardson contends that the district court erred when its
weighing instruction did not require that the aggravating circumstances
must outweigh the mitigating circumstances beyond a reasonable doubt.
He asserts such an instruction is required by the United States
Supreme Court decisions Blakely v. Washington, 542 U.S. 296, 301-02
(2004), and Apprendi v. New Jersey. 530 U.S. 466, 490 (2000).

We

disagree.
We recognize that this court's jurisprudence has created
confusion regarding whether the weighing of circumstances must be
beyond a reasonable doubt. Compare McConnell v. State, 125 Nev. 243,
254, 212 P.3d 307: 314-15 (2009) ("[N]othing in the plain language of [the
relevant statutory] provisions requires a jury to find, or the State to prove,
beyond a reasonable doubt that no mitigating circumstances outweighed
the aggravating circumstances in order to impose the death penalty" and
that "this court has imposed no such requirement.") with Johnson v. State,
118 Nev. 787, 802, 59 P.3d 450, 460 (2002) (noting that the weighing
requirement is part of a factual determination that must be found by a
jury beyond a reasonable doubt in accordance with Ring v. Arizona, 536
SUPREME COURT

OF

NEVADA
(0) 1947A

~

15

15a

U.S. 584 (2002)), overruled by Nunnery. 127 Nev. _ , 263 P.3d 235.
However, we recently resolved this conflict in Nunnery. 127 Nev. at_,
263 P.3d at 250-53, concluding that the weighing of aggravating and
mitigating circumstances is not a factual determination and thus it is not
subject to the proof-beyond-a-reasonable-doubt standard mandated by
Apprendi and Ring.

Therefore, the district court did not abuse its

discretion in refusing to give such an instruction. 2
Failure to find mitigating circumstances
Richardson contends that the State misstated the role of
mitigating circumstances by arguing that they did not mitigate against a
sentence of death but instead only mitigated against the offenses that
Richardson committed. He contends that the arguments resulted in the
jury failing to find mitigating circumstances that were supported by
uncontroverted evidence. We conclude that this argument lacks merit.
The State's comments merely rebut the significance of the defense's
mitigating evidence and constituted fair comment on the evidence. See
Thomas v. State, 122 Nev. 1361, 1368, 148 P.3d 727, 732 (2006) (providing
that the State is entitled to rebut evidence relating to defendant's
"character, childhood, and mental impairments, etc."). Moreover, the jury
was properly instructed on the role of mitigating evidence. In addition,
jurors are not required to find proffered mitigating circumstances simply
1n addition, Richardson argues that the instruction given in his
case violates equal protection because it placed a heavier burden on him
than it had on other capital defendants. We conclude that this claim lacks
merit. The given instruction was consistent with NRS 175.554. The fact
that this court employed imprecise language in describing the weighing
equation in prior cases does not entitle Richardson to an instruction
inconsistent with NRS 175.554.
2

SUPREME COURT

OF

NEVADA
(0) 1947A

16

16a

because there is unrebutted evidence to support them. Gallego, 117 Nev.
at 366-67, 23 P.3d at 240, abrogated on other grounds by Nunnery. 127
Nev. _ , 263 P.3d 235; Thomas v. State, 114 Nev. 1127, 1149, 967 P.2d
1111, 1125 (1998); see also Thomas, 122 Nev. at 1370, 148 P.3d at 733;
Hollaway v. State, 116 Nev. 732, 744, 6 P.3d 987, 996 (2000).
Prosecutorial misconduct
Richardson identifies four statements by the prosecutor
during the penalty phase that he contends constitute misconduct.
Richardson did not object to any of the comments. We conclude that these
arguments lack merit for the reasons discussed below.
First, Richardson argues that the State made improper
arguments regarding whether people who commit the type of crimes
Richardson was on trial for are capable of feeling remorse. Richardson
contends that this argument is not supported by any evidence introduced
at trial. We discern no plain error. See Gallego, 117 Nev. at 365, 23 P.3d
at 239 (providing that this court reviews claims of prosecutorial
misconduct for plain error where defendant fails to object at trial). The
comments were not improper as they invited the jury to use its common
sense in evaluating the nature of the crime in this case.

Further, as

Dehnart testified during the guilt phase of trial regarding the casual
nature in which they discussed murdering Folker and how Richardson
flippantly included Feldman in their plans saying, "she had lived a full
life," the State's argument was implicitly supported by this evidence.
Second, Richardson argues that the State improperly argued
that the jurors should use the death penalty to make a statement to the
community. We discern no plain error. "[A] prosecutor in a death penalty
case properly may ask the jury, through its verdict, to set a standard or
SUPREME COURT
OF
NEVADA

(0) 1947A

17

17a

make a statement to the community." Williams v. State, 113 Nev. 1008,
1020, 945 P.2d 438, 445 (1997), overruled on other grounds by Byford v.
State, 116 Nev. 215, 994 P.2d 700 (2000). Accordingly, the prosecutor's
comments fall within such permissible argument.
Third, Richardson contends that the State made an improper
proportionality argument. Specifically, the State noted that a defendant
may receive life for a lesser property crime, therefore, the jury should
impose a greater penalty for a murderer. We conclude that the argument
is improper. The statement referred to matters outside the scope of the
jury's charge and seemingly invited the jury to consider the wisdom of the
laws it was applying by comparing the punishments that the Legislature
has authorized for different crimes. See United States v. Coupez, 603 F.2d
1347, 1352 (9th Cir. 1979) (approving of instruction to jury not to question
the wisdom of any rule of law).

However, Richardson failed to

demonstrate that the comment prejudiced his substantial rights for two
reasons. First, the jury was properly instructed on the proper method to
determine death eligibility and the factors that it could consider to come to
a conclusion. Moreover, it had also been instructed that it was not to
consider the wisdom of any of the laws it was applying. See Summers v.
State, 122 Nev. 1326, 1333, 148 P.3d 778, 783 (2006) (recognizing that the
jury is presumed to follow jury instructions). Second, Richardson failed to
demonstrate that there was a reasonable probability of a different result
at the penalty hearing had the State not made the comment. See Thomas
v. State, 120 Nev. 37, 47, 83 P"3d 818, 825 (2004) (providing that the focus
of the prejudice inquiry should be on the penalty proceedings and whether
the misconduct "so infected the proceedings with unfairness as to make
the results a denial of due process"); Schoels v. State, 114 Nev. 981, 989,
SUPREME COURT
OF

NEVADA
(0) 1947A

18

18a

966 P.2d 735, 740 (1998) (providing that in evaluating prosecutorial
misconduct during the penalty phase, this court "will reverse the
conviction or death penalty where the decision between life or death is a
close one or the prosecution's case is weak"), on reh'g, 115 Nev. 33, 975
P.2d 1275 (1999).

The jury found all three alleged aggravating

circumstances: (1) Richardson had previously been convicted of a felony
involving the use or threat of violence to the person of another (attempted
sodomy, rape); (2) he had previously been convicted of a felony involving
the use or threat of violence to the person of another (second-degree
robbery); and (3) he had, in the immediate proceeding, been convicted of
more than one count of first-degree murder.

These aggravating

circumstances are compelling in that they demonstrate Richardson's
escalation from a violent sexual assault to a double homicide. In addition,
it shows how unresponsive to rehabilitation he is with the relatively brief
span of two years between his release from his 15-year prison term and
the instant offense.

The jury found no mitigating factors, and, as

discussed above, even those alleged, which Richardson contends are
supported by the evidence, are not particularly compelling.

Therefore,

Richardson failed to demonstrate that the comment amounted to plain
error.
Fourth, Richardson argues that the State improperly appealed
to the jurors' emotions with arguments that discussed the toll taken on the
victims' family. We discern no plain error. Victim impact testimony from
the current crime was relevant to the penalty hearing and admissible. See
Sherman v. State, 114 Nev. 998, 1013, 965 P.2d 903, 913-14 (1998).
Therefore, as the prosecutor discussed properly admitted evidence during

SUPREME COURT
OF

NEVADA

(0) 1947A

~

19

19a

his closing argument, his comments did not exceed the bounds of proper
advocacy.
Constitutionality of the death penalty
Richardson

contends

that

the

death

penalty

1s

unconstitutional on three grounds: (1) the death penalty scheme fails to
genuinely narrow death eligibility, a contention we have rejected, see
State v. Harte, 124 Nev. 969, 972-73, 194 P.3d 1263, 1265 (2008); (2) the
death penalty is cruel and unusual, an argument we have rejected, see
Gallego, 117 Nev. at 370, 23 P.3d at 242; and (3) the death penalty is
unconstitutional because executive clemency is unavailable, an argument
we have rejected, see Colwell v. State, 112 Nev. 807, 812, 919 P.2d 403,
406-07 (1996). Richardson's death sentence is not unconstitutional on any
of these grounds.
Cumulative error
Richardson argues that the cumulative effect of the errors
committed during his trial warrant reversal of his conviction and
sentence.

"The cumulative effect of errors may violate a defendant's

constitutional right to a fair trial even though errors are harmless
individually." Hernandez v. State, 118 Nev. 513, 535, 50 P.3d 1100, 1115
(2002). However, a defendant is not entitled to a perfect trial, merely a
fair one.

Ennis v. State, 91 Nev. 530, 533, 539 P.2d 114, 115 (1975).

Based on the foregoing discussion of Richardson's claims, we conclude that
any error in this

case, when considered either individually or

cumulatively, does not warrant relief.
Mandatory review
NRS 177.055(2) requires that this court review every death
sentence and consider whether (1) sufficient evidence supports the
SUPREME COURT

OF

NEVADA
(0) 1947A

20

20a

aggravating circumstances found, (2) the verdict was rendered under the
influence of passion, prejudice or any arbitrary factor, and (3) the death
sentence is excessive.

First, sufficient evidence supported the three

aggravating circumstances found-all of which involve either prior or the
instant convictions. Second, nothing in the record indicates that the jury
reached its verdict under the influence of passion, prejudice, or any
arbitrary factor. And third, considering the calculated nature in which
Richardson planned and murdered the victims, his prior rape conviction,
and the evidence in mitigation, we conclude that Richardson's death
sentence was not excessive.
Having considered Richardson's contentions and concluded
that they lack merit, we
ORDER the judgment of conviction AFFIRMED.

J.

JJrJru j .

' J.

Pickering

-PM). ~U . ,---j_

J.

Hardesty

cc:

\

Parraguir;;

Hon. Michelle Leavitt, District Judge
Special Public Defender
Attorney General/Carson City
Clark County District Attorney
Eighth District Court Clerk

SUPREME COURT
OF

NEVADA
(0) 1947A

21

21a

CHERRY, C.J., with whom SAITTA, J., agrees, dissenting:
I respectfully dissent.

I would reverse the judgment of

conviction on the grounds that the district court improperly limited the
defense's argument, the police were grossly negligent in failing to collect
evidence, the district court abused its discretion in admitting several
pieces of evidence, and the prosecutor made improper comments during
closing argument.
Limiting of defense argument
The

district

court

abused

its

discretion

1n

limiting

Richardson's closing argument. See Glover v. Dist. Ct., 125 Nev. 691, 704,
220 P.3d 684, 693 (2009) (providing that this court reviews the latitude
allowed counsel in closing arguments for abuse of discretion). Richardson
elicited evidence (his statements during recorded phone conversations)
that he had left Las Vegas before Dehnart. Therefore, he should have
been allowed to argue that he had returned to California before the
murders.

Id. at 705, 220 P.3d at 694 ("'[D]efense attorneys must be

permitted to argue all reasonable inferences from the facts in the record."')
(quoting U.S. v. Hoffman, 964 F.2d 21, 24 (D.C. Cir. 1992). As there was
conflicting evidence of this crucial fact and no physical evidence placing
Richardson in the home or even in the state at the time of the murders,
counsel's argument became that much more vital to the defense.

See

United States v. Sawyer, 443 F.2d 712, 713 (D.C. Cir. 1971) (providing
that a district court abuses its discretion when it "prevents defense
counsel from making a point essential to the defense").
I further disagree with the majority's conclusion that this
error was harmless beyond a reasonable doubt. Being able to argue that
SUPREME COURT

OF
NEVADA
(0) 1947A

22a

physical evidence did not place him at the scene was not as powerful as
being able to point to a plausible alternate theory that Richardson had
returned to California. Further, the evidence against Richardson was not
overwhelming.

It consisted chiefly of accomplice testimony that was

supplemented by a video from Taco Bell, a $275 deposit, and testimony
about a hat that police neglected to recover. Based on this evidence, I
cannot say beyond a reasonable doubt that the error did not contribute to
the verdict. See Valdez v. State, 124 Nev. 1172, 1189, 196 P.3d 465, 476
(2008) (providing that where the error is constitutional, this court "will
reverse unless the State demonstrates, beyond a reasonable doubt, that
the error did not contribute to the verdict"); see also Gerlaugh v. Stewart,
129 F.3d 1027, 1050 (9th Cir. 1997) ("[T]he Sixth Amendment right to
counsel encompasses the right to have defense counsel present a closing
summation.").
Failure to gather evidence
I disagree with the majority's conclusion that Richardson
failed to show a due process violation concerning the police's failure to
collect the hat that the State relied on to place him at the scene. The hat
was found under Folker's bed and did not appear to have any blood on it.
Thus, it was just as likely that the hat belonged to someone who lived at
the home as it was that it belonged to Richardson, was knocked under the
bed, and escaped any blood spatter that resulted from what the evidence
shows was a vicious beating.

The hat therefore was as material to

Richardson's defense as it was to the State's case against him.
The failure to collect the hat was grossly negligent.

The

record indicates that detectives observed surveillance video at Taco Bell
showing one of the victims interacting with two men, one of whom was
SUPREME COURT
OF

NEVADA
(0) 1947A

~

2

23a

wearing a hat with similar shading. The detectives then returned to the
crime scene where they picked up the hat, passed it around to each other,
and even joked about it. Despite the amount of discussion that the hat
generated, it was not collected.

I acknowledge that "'police officers

generally have no duty to collect all potential evidence from a crime
scene,"' Daniels v. State, 114 Nev. 261, 268, 956 P.2d 111, 115 (1998)
(quoting State v. Ware, 881 P.2d 679, 684 (N.M. 1994)), but this piece of
evidence obviously generated enough interest that it should have been
collected.

Further, the police released the scene, allowing for any

remaining evidence in it to be destroyed, within a relatively short period of
time after the murders and before they had positively identified a suspect.
In addition, the State was allowed to capitalize on the fact that the hat
was just as likely to have belonged to Folker as Richardson, but
Richardson was not. In a pretrial hearing, the State introduced evidence
justifying the failure to collect the hat on the grounds that the lack of
apparent blood and location of the hat made it appear that the hat
belonged to Folker, but then later argued to the jury that the hat indeed
belonged to Richardson and placed him at the scene without needing to
produce it.

Under the circumstances, Richardson was entitled to a

presumption that the evidence would have been unfavorable to the State.
Such an instruction would have put him on fair footing to contest the
testimony that the hat belonged to him.
Admission of evidence
Richardson contends that the district court abused its
discretion in admitting several pieces of evidence.

I agree with his

contentions that the district court abused its discretion in admitting an
example of the murder weapon and several autopsy photographs.
SUPREME COURT
OF

NEVADA
(0) 1947A

3

24a

Hammer
The district court abused its discretion in admitting the
hammer as an example of the murder weapon. See Mclellan v. State, 124
Nev. 263, 267, 182 P.3d 106, 109 (2008) (providing that this court reviews
"a district court's decision to admit or exclude evidence for an abuse of
discretion"). The hammer, as demonstrative evidence, had little probative
value. Dehnart's testimony about purchasing the hammer for the crimes
and the medical examiner's testimony were sufficient to establish that a
hammer was used to kill the victims. It can further be assumed that the
jurors brought with them the common knowledge of how a hammer can be
used. The record does not indicate that there was anything extraordinary
about this hammer that required its presence to explain the wounds or
manner in which they were inflicted. Cf. State v. Carter, 955 S.W.2d 548,
561 (Mo. 1997) (concluding demonstrative gun probative where used to
show how shell casings would eject from it); Lynn v. State, 860 S.W.2d
599, 603-04 (Tex. Ct. App. 1993) (holding that demonstrative weapon was
probative when there was issue as to force required to pull the trigger); see
also Wade v. State, 204 So. 2d 235, 238-39 (Fla. Dist. Ct. App. 1967)
(admitting master brake cylinder).
As the probative value of the hammer was not significant, not
much in the way of unfair prejudice is necessary to conclude that the
district court abused its discretion in admitting it.

See NRS 48.035(1)

(providing that relevant evidence is inadmissible "if its probative value is
substantially outweighed by the danger of unfair prejudice, of confusion of
the issues or of misleading the jury"). Demonstrative evidence of murder
weapons carries a unique potential for unfair prejudice:
A great deal of demonstrative evidence has the
capacity to generate emotional responses such as
SUPREME COURT
OF

NEVADA
(0) 1947A

~

4

25a

pity, revulsion, or contempt, and where this
capacity outweighs the value of the evidence on
is
exclusion
litigation,
in
issues
the
appropriate. . . . [E]ven if no essentially emotional
response is likely to result, demonstrative
evidence may convey an impression of objective
reality to the trier.
2 John William Strong, McCormick on Evidence, ยง 212, at 4 (4th ed. 1992);
see also 2 Kenneth S. Brown, McCormick on Evidence,ยง 212, at 7 (6th ed.
2006) ("Since 'seeing is believing,' it is today often felt that this kind of
evidence possesses an immediacy and apparent reality which endow it
with particularly persuasive effect."). The exhibit permitted the State to
capitalize on the gravity that introducing a physical weapon might exert
on the jury without producing the actual weapon. While such a latent
emotional effect would be tolerated where the evidence had more probative
value, I conclude that the danger of unfair prejudice far outweighs the
probative value of the hammer in this instance. See Elder on Behalf of
Finney v. Finney, 628 N.E.2d 393, 395 (Ill. App. Ct. 2003) ("If it appears
that demonstrative evidence was used for dramatic effect, or emotional
appeal, rather than factual explanation useful to the reasoning of the jury,
such use should be regarded as reversible error."). Moreover, the district
court did not take adequate measures to reduce this danger. Nevada has
no published authority concerning the admission of replica murder
weapons.

However, other jurisdictions have concluded that the best

practice for admitting such evidence is to issue a cautionary instruction
and prevent the jury from taking it into the jury room during
deliberations. See United States v. Cox, 633 F.2d 871, 873-74 (9th Cir.
1980) (recognizing better procedure for admitting replica of explosive
device would be to exclude it from the jury room but ruled no abuse of
SUPREME COURT
OF

NEVADA

(0) 1947A

5

26a

discretion where district court issued limiting instruction and defense had
opportunity to cross-examine); U.S. v. Johnson, 354 F. Supp. 2d 939, 97778 (N.D. Iowa 2005) ("[P]rejudice can be ameliorated, for example, where
the government makes clear in its use of the replica that it is not the
actual weapon used or carried by the defendant, the court gives a proper
limiting instruction, and the replica is not left on display in the courtroom
or given to the jury during deliberations."), affd, 495 F.3d 951 (8th Cir.
2007); Berry v. State, 715 N.E.2d 864, 867 (Ind. 1999) (concluding that
shotgun had little prejudicial effect where district court instructed the jury
that it was an example); Com. v. Stewart, 499 N.E.2d 822, 826-27 (Mass.
1986) (concluding that no error occurred in admission of example of
murder weapon where district court gave limiting instruction); State v.
Flores, 418 N.W.2d 150, 159-60 (Minn. 1988) (holding no abuse of
discretion where replica murder weapon not given to jury during
deliberations and district court instructed jury it was a replica); Foster v.
State, 714 P.2d 1031, 1036 (Okl. Crim. App. 1986) (holding that replica
baseball bat was not unfairly prejudicial where State and district court
informed the jury that it was not the actual weapon). Given the lack of
binding authority on this subject, it would have been preferable for the
district court to proceed cautiously by instructing the jury that the
hammer was not the actual murder weapon and prevent the jury from
taking it into the jury room during deliberations. Such a course of action
would have alleviated much of the unfair prejudice that surrounds its
admission.
Autopsy photographs
I agree with Richardson's contention that the district court
abused its discretion in admitting certain of the autopsy photographs.
SUPREME COURT

OF

NEVADA
(0) 1947A

6

27a

Byford v. State, 116 Nev. 215, 231, 994 P.2d 700, 711 (2000). The record
indicates that the photographs were used to assist the medical examiner
However, the gruesomeness of the

in explaining the victims' injuries.

photographs, particularly those that displayed the victims' bare skulls
after their scalps were resected during the autopsy, were extremely
prejudicial. See Clark v. Com., 833 S.W.2d 793, 794 (Ky. 1991) (noting
that photographs become less admissible when the subject has been
"materially altered by mutilation, autopsy, decomposition or other
extraneous causes, not related to commission of the crime, so that the
pictures tend to arouse passion and appall the viewer"); Hayes v. State, 85
S.W.3d 809, 816 (Tex. Crim. App. 2002) ("[A]utopsy photographs are
generally admissible unless they depict mutilation of the victim caused by
the autopsy itself."). Further, several of the photographs merely showed
injuries that had been detailed in other photographs from slightly
different angles and therefore became less probative.

See Driskell v.

State, 659 P.2d 343, 354 (Okla. Crim. App. 1983) (concluding that there
was "no justification for the incredible duplication" of four color slides of
victim's near decapitation). Moreover, as the manner of death was not the
subject of great dispute, multiple photographs proving that fact were
unnecessary.
Because the evidence introduced against Richardson was not
overwhelming, I cannot conclude that the error in introducing either the
hammer or the autopsy photographs was harmless.
Prosecutorial misconduct
The State's argument during the guilt phase of trial, which
Richardson now challenges, was improper. The prosecutor stated:
This is not over, but it will be. And you will
write the ending to the pain and suffering of
SUPREME COURT

OF
NEVADA

(0) 1947A

7

28a

Estelle and Steven with your verdict. And the
unimaginable and lingering death that they both
suffered. Besides the pain, the knowledge that
[the] one they loved struggled nearby and they
could do nothing for each other.
This language was inflammatory and was employed to evoke an emotional
response in its audience. The majority may hold that such language was
subsequently diffused by the prosecutor's later plea to render a verdict
from "conscience and rectitude." However, I conclude that the prosecutor's
meek admonition failed to equal the resonance of his initial language.
Nevertheless, I do not believe that this single comment, in and of itself, "so
infected the proceedings with unfairness as to make the results a denial of
due process," Thomas v. State, 120 Nev. 37, 47, 83 P.3d 818, 825 (2004), or
rose to the level of plain error, see Gallego v. State, 117 Nev. 348, 365, 23
P.3d 227, 239 (2001) ("Failure to object during trial generally precludes
appellate consideration of an issue."), abrogated on other grounds by
Nunnery v. State, 127 Nev._, 263 P.3d 235 (2011), cert. denied, 567 U.S.
_ , 132 S. Ct. 2774 (2012).
Cumulative error
I agree with Richardson's contention that the cumulative
effect of the errors committed during his trial warrant reversal of his
conviction and sentence. "The cumulative effect of errors may violate a
defendant's constitutional right to a fair trial even though errors are
harmless individually." Hernandez v. State, 118 Nev. 513, 535, 50 P.3d
1100, 1115 (2002). There are three factors relevant to a cumulative error
analysis: (1) the gravity of the crime, (2) whether the question of guilt is
close, and (3) the quantity and character of the error. Mulder v. State, 116
Nev. 1, 17, 992 P.2d 845, 854-55 (2000).
SUPREME COURT

OF

NEVADA
(0) 1947A

8

29a

As to the first factor, Richardson was charged with two counts
of first-degree murder and the State sought the death penalty.
Accordingly, he faced two counts of the most serious crime in Nevada and
two sentences of Nevada's harshest punishment.
Second, the question of his guilt was close. The chief evidence
against Richardson was the testimony of Dehnart, who testified against
Richardson in exchange for a reduced penalty for his own involvement in
the murders. Dehnart's testimony was corroborated by testimony about a
hat that the police failed to collect, a surveillance video from a restaurant
taken the day of the murders, and $275 dollars that Richardson gave to
his girlfriend after the murders. Dehnart's fingerprints were found at the
murder scene, but the police did not recover any physical evidence that
placed Richardson in the victims' home.
Lastly, the errors in this case worked in conjunction with one
another to deprive Richardson of a fair trial. The hat, which the State
relied most heavily upon to tie Richardson to the scene and corroborate
Dehnart's testimony, was not collected due to gross negligence. The State
benefitted from the failure to collect the hat and the district court's
decision to not give an instruction that would have put Richardson's
arguments concerning the relevance of the hat on equal footing with those
of the State. This evidentiary inequity was exacerbated by the State's
introduction of evidence (the demonstrative hammer and gruesome
autopsy photographs) that was more inclined to influence the passions of
the jury than appeal to its reason. The State further stoked the jury's
emotion in its closing argument while Richardson was unable to even put
forth his most persuasive and permissible argument. While I acknowledge
that a defendant is not entitled to a perfect trial, see Ennis v. State, 91
SUPREME COURT

OF
NEVADA

9

30a

Nev. 530, 533, 539 P.2d 114, 115 (1975), this trial was so far from perfect
that it was unfair.

Accordingly, I would reverse the judgment of

conviction and remand for a new trial.

Cherry

(

Saitta

SUPREME COURT
OF

NEVADA
(0) 1947A

~

10

31a

